 U.S. Department of Education
Office of Inspector General




Semiannual Report
   to Congress
      No. 43




     April 1 - September 30, 2001
  U.S. Department of Education
Office of Inspector General




 Semiannual Report
    to Congress
            No. 43

   April 1 — September 30, 2001
                                                         October 31, 2001



Honorable Roderick R. Paige
Secretary of Education
Washington, DC 20202

Dear Mr. Secretary:

I am pleased to submit to you, in accordance with the Inspector General Act of 1978 (Public Law
95-452, as amended, section 5(b)), this semiannual report on the activities of the Department's
Office of Inspector General (OIG) for the six-month period ending September 30, 2001.

The enclosed report highlights our most significant work of the period, with particular focus on
the areas of financial management and internal controls, information technology security, and
student financial assistance. These areas are also included in the work of the Department’s
Management Improvement Team. We followed up on our internal control work, and testified
twice about the results of that work. Our review of the Department’s implementation of the
Government Information Security Review Act identified a number of significant deficiencies in
the agency-wide and principal office security plans. The Department is working to resolve our
recommendations. Our investigations into fraud in the student financial assistance programs
resulted in significant convictions, sentencings, and monetary restitutions.

The Inspector General Act requires you to transmit this report within 30 days to the appropriate
congressional committees and subcommittees, together with a report containing any comments
you wish to make. Your report should also include the statistical tables specified in section
5(b)(2) and (3), and a statement with respect to audit reports on which management decisions
have been made, but final action has not been taken, as specified in section 5(b)(4).

We are committed to carrying out our legislative mandate to identify fraud, waste, and abuse,
and to recommend appropriate corrective actions. I look forward to continuing to work together
with you and Department managers to ensure that Department of Education programs and
operations serve the nation’s students and taxpayers with efficiency, effectiveness, and integrity.

                                                Sincerely,



                                                Lorraine Lewis
                                Inspector General’s
                            MESSAGE TO CONGRESS


We are pleased to provide this semiannual report on the accomplishments of the
Office of Inspector General (OIG), U.S. Department of Education, from April 1,
2001 through September 30, 2001. During this period, we issued 53 audit and
inspection reports and memoranda, closed 116 investigations, and testified before
congressional committees three times. Our testimony covered financial management
and internal controls, distance education, and incentive compensation ban subjects.

My vision for OIG is set forth in our mission statement and is reflected in the work
we do. Our mission statement commits us to promote the efficiency, effectiveness,
and integrity of the Department’s programs and operations.

We also established core values of excellence, accountability, and integrity. These
values form the foundation of our mission and our work. Our mission and values
statements may be found on the OIG website, at http://www.ed.gov/offices/OIG/.

Our independent oversight is vital to ensure integrity and improve the operation of
education programs as the amount of taxpayer dollars committed to the Department’s
stewardship increases. Our workplan for 2002-2003 provides detailed information
on our future initiatives, and is at http://www.ed.gov/offices/OIG/misc/wp2002.pdf.

In this report, we focus on three issues of critical importance to the Department:
financial management and internal controls, information technology security, and
student financial assistance. In financial management and internal controls, we
continue to work in the area of improper payments. We and the Department
discussed the importance of this issue recently in letters to Senators Lieberman and
Thompson.

These three issues were also a focus of the Secretary’s Management Improvement
Team (MIT). OIG’s work formed the basis of most of the outstanding
recommendations the MIT reviewed. OIG provided timely suggestions for the
Secretary’s Blueprint for Management Excellence and Action Plan, issued on
October 30.

We look forward to continuing to work with the Congress and the Secretary on these
three issues and other management challenges facing the Department.


                                        Lorraine Lewis
                                                                   CONTENTS


LETTER TO THE SECRETARY
INSPECTOR GENERAL'S M ESSAGE TO CONGRESS
ACTIVITIES AND ACCOMPLISHMENTS ............................................................................................1
Ø     Financial Management and Internal Controls..........................................................................1
         Disbursement Process.............................................................................................................1
         Grants Administration and Payment System.............................................................................2
         Purchase Cards and Third-Party Drafts.....................................................................................2
         Contracting ............................................................................................................................2

Ø     Information Technology Security.............................................................................................3
         Government Information Security Reform Act.........................................................................3

Ø     Student Financial Assistance ....................................................................................................3
         Financial Responsibility ..........................................................................................................4
         Course-Length Requirements ..................................................................................................4
         Incentive Compensation ..........................................................................................................4
         Institutional and Recipient Fraud .............................................................................................5

Ø     Other Significant Activities ......................................................................................................6
         Elementary, Secondary and Special Education Programs...........................................................6
         Nonfederal Audit Activities.....................................................................................................7

Ø     P.L. 95-452 Reporting Requirements........................................................................................8

Ø     APPENDIX 1: Recommendations Described in Previous Semiannual Reports on Which
                   Corrective Action Has Not Been Completed.......................................................................................9

Ø     APPENDIX 2:            Other ED/OIG Reports on Education Department Programs and Activities ...............................10

Ø     APPENDIX 3: ED/OIG Audit Services Reports on Education Department
                  Programs and Activities .........................................................................................................................11

Ø     APPENDIX 4:            Inspector General Issued Audit Reports with Questioned Costs ...................................................14

Ø     APPENDIX 5:           Inspector General Issued Audit Reports with Recommendations for
                             Better Use of Funds...............................................................................................................................14

Ø     APPENDIX 6:            Unresolved Reports Issued Prior to April 1, 2001............................................................................15

Ø     APPENDIX 7:            Investigation Services Cumulative Actions.......................................................................................17

Ø     APPENDIX 8:            Collections from Audits and Investigations.......................................................................................21

Ø     APPENDIX 9:            Statistical Profile ....................................................................................................................................22
                           ACTIVITIES AND ACCOMPLISHMENTS

The Office of Inspector General (OIG), for the period April 1 to September 30, 2001, continued
its work to improve the programs and operations of the Department of Education (the
Department, or ED) and to protect their integrity. In particular, we focused on areas in which we
have identified long-standing weaknesses – financial management and internal controls,
information technology (IT) security, and the student financial assistance programs.

In response to Congressional, OIG and General Accounting Office (GAO) concerns about the
management of the Department, the Secretary this period established a Management
Improvement Team (MIT) to, among other things, identify and close as many short-term
management improvement recommendations as possible. These are largely OIG
recommendations that we identified in our audit, inspection, and investigation work. The
Secretary’s report, “Blueprint for Management Excellence,” may be found at
http://www.ed.gov/inits/mit/blueprint.pdf.

Among the Department problems identified by the MIT are the OIG focus areas listed above.
We are pleased to be contributing to this effort with our extensive recommendations for
improvement, by working with the team to see that these recommendations are resolved, and by
detailing two OIG staff members to the team. The Deputy Inspector General, on detail to the
Department, leads the MIT.

Below, we highlight our most significant activities during this reporting period, with particular
emphasis on our work related to the Department’s financial management and internal controls,
IT security, and the student financial assistance programs. You may find more detailed
descriptions of our activities on our Web site, at http://www.ed.gov/offices/OIG.

FINANCIAL MANAGEMENT AND INTERNAL CONTROLS
OIG audits, inspections, and investigations have identified long-standing deficiencies in the
Department’s internal controls and financial management. In testimony on two occasions this
period before the House Subcommittee on Select Education, Committee on Education and the
Workforce, the Inspector General and GAO discussed the Department’s progress and continued
challenges as it seeks to improve its financial management and internal controls. The Inspector
General’s statements are available on the OIG website, at
http://www.ed.gov/offices/OIG/AuditRpts/stmt042001.pdf and
http://www.ed.gov/offices/OIG/AuditRpts/stmt072001.pdf.

Disbursement Process
We contracted this period with Ernst & Young, LLP for reviews of the Department's controls
over payment systems and processes for three programs. The reviews found that the programs
needed better data integrity controls to reduce the risk of erroneous payments. The programs
were in the offices of Elementary and Secondary Education (Impact Aid), Educational Research
and Improvement, and Vocational and Adult Education. The Department concurred with the
findings and agreed to act on the recommendations.



                                                     1
In cooperation with the Office of the Chief Financial Officer (OCFO) and Student Financial
Assistance (SFA), Ernst &Young developed business maps documenting the workflow and key
internal controls for various disbursement processes. These maps will assist management in
continually assessing and evaluating its internal controls to meet the challenges of an ever-
changing environment.

We began to review the resolution and recovery of duplicate payments after the Department
identified several instances of duplicate payments for fiscal years 1998, 1999 and 2000. Our
work revealed that there are several Department payment methods. These payment systems and
processes are critical elements in the financial management of the Department, and we will
continue to evaluate the Department’s progress in eliminating duplicate payments and other
types of improper payments. We and the Department recently discussed the importance of this
issue in letters to Senators Lieberman and Thompson.

Grants Administration and Payment System
We conducted a review of the Department’s Grants Administration and Payment System (GAPS)
and found that 648 records applicable to the period May 1998 through October 2000 were
missing. GAPS, a component of the Department's core financial system, supports grant planning
and award management of Department programs, including discretionary and formula grants.
The missing records are needed to identify changes made to bank accounts, who made the
changes, and when the changes were made. They are critical to ensuring database integrity and
management control. As a result of our findings, OCFO has begun efforts to determine why the
records are missing. (“Missing Records in the Grants Administration and Payment System,”
Action Memorandum FIN-01-01, September 25, 2001.)

Purchase Cards and Third-Party Drafts
We issued a follow-up report on the Department’s internal control over purchase cards. We
found that while the Department has made some improvement, more work is necessary. We had
found significant supervisory and procedural weaknesses in previous reviews of internal controls
over the purchase card and third-party draft programs (see Semiannual Report No. 42, page 6).
The Department has stopped using third-party drafts. We are continuing our review of the
Department’s controls over purchase cards. GAO also continues to look in this area. (“Follow-
up Review of Internal Control Over Purchase Cards,” ED-OIG/A&I 2001-04, September 28,
2001.)

Contracting
We reviewed the management of government property by two Department contractors, and
identified similar internal control weaknesses at both. Internal controls to ensure the integrity
and proper management of Department funds are critical, not only in the Department but also in
the operations of contractors who manage Department property and funds.

Ø    CONTROLS OVER GOVERNMENT-FURNISHED PROPERTY
      Our reviews disclosed significant supervisory and procedural weaknesses in the
      management of government property. We found that the contractors did not properly
      identify the property and did not comply with recordkeeping, reporting, or inventory
      requirements. Internal controls to ensure the integrity and proper management of
      Department funds are critical not only within the Department, but also within the
      operations of contractors. Our audits did not disclose any fraud. We recommended several

                                                    2
      corrective actions. Both contractors generally agreed with our findings. (“Audit of
      Controls over Government Property Furnished to Affiliated Computer Services, Inc.,” ED-
      OIG/A19-B0004, April 20, 2001 and “Controls over Government Property Managed by
      Raytheon Systems Company,” ED-OIG/A19-B0005, September 19, 2001.)

Ø    INVESTIGATIONS
      OIG investigations of Department contractors and employees resulted in a number of
      criminal prosecutions. Our work led to a 19-count indictment of 11 individuals for
      defrauding the Department of $634,000 of unworked overtime and $300,000 in equipment
      kept for personal use. Our work in this case resulted in seven guilty pleas in prior
      reporting periods (Semiannual Report No. 41, page 4 and Semiannual Report No. 42, page
      17).

INFORMATION TECHNOLOGY SECURITY
IT security has been and remains a significant management challenge for the Department, and
we continue to dedicate significant audit resources to identify and report on vulnerabilities in its
IT systems. Our audit work, and that of GAO, has been a major factor in the Department’s
identification of IT security as a material weakness in its annual Federal Managers’ Financial
Integrity Act reports since fiscal year 1999. In addition, Ernst & Young identified controls
surrounding IT systems as a material weakness in its Report on Internal Controls for Fiscal Year
2000 Financial Statement Audit.

Government Information Security Reform Act
Our audit of the Department’s implementation of the Government Information Security Reform
Act (GISRA) found that the Department is not in full compliance with the Act’s requirements for
agency-wide information security programs. We made 15 recommendations based on our audit
findings.

GISRA requires agency-wide information security programs to include periodic risk
assessments, policies, and procedures to reduce security risks to an acceptable level. It further
requires that agencies implement security awareness and training, testing of the effectiveness of
security policies and procedures, a process for correcting any significant deficiencies, and
procedures for handling security incidents. Agency program officials must review, at least
annually, each information security program. GISRA also requires the agency’s Inspector
General to perform an independent evaluation of the agency’s information security program and
practices in fiscal years 2001 and 2002.

We identified significant deficiencies in the agency-wide and principal office security plans,
programs, and practices. We also identified major weaknesses in management, operational, and
technical controls. Our findings confirm that principal offices are not effective in protecting
critical resources from unauthorized access or modification, although the Department has made
improvements. The Department advised us that it has developed Plans of Action and Milestones
to address our findings, to be submitted to the Office of Management and Budget. (“Department
of Education’s Implementation of GISRA,” ED-OIG/A11-B0007, September 7, 2001.)

STUDENT FINANCIAL ASSISTANCE
OIG work during the period continued to show the student financial assistance programs as one
of the top management challenges facing the Department. One of the Secretary’s goals is to

                                                     3
remove these programs from the General Accounting Office’s High Risk List. Our work during
the period revealed areas of concern similar to those of prior periods.

Financial Responsibility
Our review of SFA’s enforcement of the Higher Education Act’s (HEA) institutional financial
responsibility requirements found that SFA has not established sufficient controls and procedures
to ensure that it enforces the requirements in a consistent and timely manner. Institutions must
meet the HEA’s financial responsibility requirements to participate in the student financial
assistance programs. We recommended that the Chief Operating Officer for SFA develop and
implement policies, procedures, and contract modifications to improve management controls and
procedures for enforcing the financial responsibility regulations. SFA concurred with our
findings, and advised us that they had previously identified some weaknesses and had begun
actions to correct them. (“Student Financial Assistance Enforcement of the Institutional
Financial Responsibility Regulations,” ED-OIG/A09-A0018, September 28, 2001.)

Course-Length Requireme nts
We completed audits on course-length requirements at three schools. We found that the schools
could not demonstrate compliance with the required number of instructional hours to meet the
statutory definition of an academic year. We recommended that William Penn University return
$950,593 in Federal Family Education Loan (FFEL) funds to lenders and $239,242 in Pell Grant
funds to the Department. We also recommended that Olivet Nazarene University return to
lenders $434,500 in FFEL funds. Our recommendation for monetary recovery from Indiana
Wesleyan University concerned incentive compensation, as described in the section below. The
universities did not agree with our conclusions and recommendations. These audits are pending
resolution. (“Audit of Course Length at William Penn University,” ED-OIG/A07-B0001,
September 28, 2001; “Audit of Commissioned Sales and Course Length at Indiana Wesleyan
University,” ED-OIG/A05-B0004, September 28, 2001; “Audit of Course Length at Olivet
Nazarene University,” ED-OIG/A05-B0014, September 28, 2001.)

In testimony this period before the House Subcommittee on 21st Century Competitiveness,
Committee on Education and the Workforce, the Inspector General urged Congress to provide a
statutory definition of instruction. A definition will help assure that all students receive an
appropriate amount of instruction, through traditional as well as non-traditional methods, to
justify the amount of student financial assistance funds awarded. The Inspector General’s
statement is available at http://www.ed.gov/offices/OIG/AuditRpts/stmt062001.pdf.

Incentive Compensation
Our audits at three schools disclosed violations of the HEA’s incentive compensation provision,
which prohibits institutions from paying individuals or organizations based on their success in
enrolling students or obtaining student financial aid for the school. In each case, we found the
school paid the Institute of Professional Development a percentage of tuition for all students
enrolled in certain of its programs. In our largest recommendation for monetary recovery in this
area this period, we recommended that Indiana Wesleyan University return $30,022,551 in FFEL
funds to lenders. The schools did not agree with our conclusions and recommendations. These
audits are pending resolution. (“Audit of Commissioned Sales at Olivet Nazarene University,”
ED-OIG/A05-A0030, May 21, 2001; “Audit of Commissioned Sales and Course Length at
Indiana Wesleyan University,” ED-OIG/A05-B0004, September 28, 2001; “Audit of
Commissioned Sales at William Penn University,” ED-OIG/A07-90035, May 15, 2001.)

                                                   4
We are concerned that payments based on success in securing student enrollment create
incentives to engage in misrepresentation or other improper recruiting tactics, and recommend
that a complete ban on improper incentives is the most effective way to protect students. The
Inspector General also addressed incentive compensation in the testimony cited above (“Course-
Length Requirements”).

Institutional and Recipient Fraud
OIG investigations continued to result in prosecution of individuals who defraud the student
financial assistance programs. These individuals engaged in various types of fraud, including
fraud involving loan defaults and collections and submission of Pell Grant applications for non-
existent or ineligible students. This period we also saw significant results in our cases against
financial aid preparers. Highlights of our work follow.

Ø    FRAUD INVOLVING LOAN DEFAULTS /COLLECTIONS
      OIG cases against school officials and others who attempted to defraud the Department’s
      loan programs with loan fraud schemes led to three indictments, a sentencing, and civil
      settlements. Two examples follow.

     Ø     A Maryland attorney devised a scheme to collect monies from borrowers, but did not
           forward all of the funds he collected to the guaranty agencies. He was sentenced to
           four months in a halfway house, four months home detention and two years of
           supervised probation, and was ordered to pay $16,655 in restitution.
     Ø     A proprietary school and a default management company operating in Oklahoma and
           Kansas entered into civil settlements in which they agreed to pay the Department a
           total of $475,000. The case involved allegations that employees at both institutions
           submitted fraudulent forbearance forms to lenders, which had the effect of lowering
           the schools’ cohort default rates, thereby preserving their participation in student loan
           programs.

Ø    ELIGIBILITY FRAUD
      OIG agents uncovered eligibility fraud schemes that led to sentencings for the school
      owners and officials who perpetrated them. Examples include the following.

     Ø     The co-owner of a two-campus Texas proprietary school was sentenced to 37 months
           incarceration and ordered to pay restitution of $1,105,789 for disbursing student
           financial assistance funds to students at one of the campuses before the Department
           had approved its participation in the student financial assistance programs.

     Ø     The former admissions representative/director at a Missouri school was the fourth
           official from that school to be sentenced for participating in a conspiracy to submit
           fraudulent Pell Grant applications and supporting documentation to obtain student
           financial assistance funds. The school’s high default rate had caused it to lose
           eligibility to participate in the Guaranteed Student Loan program several years before.

     Ø     The president of a Florida community college was sentenced to 46 months in prison
           for her role in a scheme to enroll elderly clients in Pell-eligible courses that offered
           only exercise and handcrafts. (See Semiannual Report No. 42, pages 14-15 for a
           report on four guilty pleas in this case.)

                                                     5
     Ø    The owner of a Midwest career college was sentenced to 51 months incarceration for
          instructing employees to falsely report that ineligible students admitted to the school
          were eligible for student aid. (See Semiannual Report No. 41, page 11, for additional
          information on this case.)

Ø    PREPARER FRAUD
      OIG investigations continue to identify individuals, known as student aid “preparers,” who
      assist parents in filling out false financial aid forms enabling them to fraudulently obtain
      student financial assistance funds for their children. This period, five preparers, five
      parents and two students pled guilty or were sentenced in the Northern District of Illinois
      for participating in such schemes. Fines, restitutions and civil settlements resulting from
      preparer cases totaled more than $500,000.

OTHER SIGNIFICANT ACTIVITIES
Elementary, Secondary, and Other Education Programs
Our work relating to elementary, secondary and other education programs disclosed findings
relating to management controls over Individuals with Disabilities Education Act (IDEA)
performance data, monitoring, and adult education.

Ø    CONTROLS OVER DATA COLLECTION AND REPORTING
      Reviewing grantees’ compliance with Government Performance and Results Act (GPRA)
      requirements is an ongoing priority for OIG. The integrity of IDEA, Part B state-reported
      data is of particular importance because the Department relies on it to provide Congress an
      objective and accurate measure of the success of its special education programs, as
      required under GPRA.

      Our audits at the Michigan and Kansas state departments of education found that both need
      to take additional steps to improve management controls over the collection and reporting
      of data. Both Michigan and Kansas generally agreed with our findings and have already
      taken steps to correct some of the deficiencies. We also issued an information
      memorandum to the Department on our GPRA/IDEA reviews. The memorandum did not
      require a response. (“Michigan Department of Education Management Controls over
      IDEA,” ED-OIG/A05-A0031, September 21, 2001; “Kansas State Department of
      Education, Management Controls Over IDEA, Part B – Special Education Performance
      Data,” ED-OIG/A07-A0020, July 20, 2001; State and Local Information Memorandum No.
      01-02, September 28, 2001.)

Ø    VIRGIN ISLANDS
      We issued two reports on the continuing lack of adequate management controls in the
      Virgin Islands Department of Education (VIDE). We determined that the Department
      cannot rely on the financial management and personnel practices used by the Virgin
      Islands government in administering salary costs for the IDEA, Part B programs. VIDE
      generally concurred with our findings and recommendations. (“Audit of the Virgin Islands
      Department of Education, Special Education Payroll,” ED-OIG/A04-B0013, July 17, 2001;
      “The Virgin Islands Government Lacks Adequate Management Controls Over the
      Administration of Its IDEA, Part B Grant Program Salary Costs,” ED-OIG/A04-A0015,
      July 27, 2001.)

                                                    6
      This work follows our previous work at VIDE. Last period, we alerted the Department to
      concerns we identified during our ongoing audit of VIDE’s compliance with IDEA, Part B
      (Semiannual Report No. 41, page 10). We remain concerned about VIDE’s administration
      of Department programs and the progress being made to correct deficiencies. We continue
      to meet with Department and interagency teams to discuss problems in the Virgin Islands.

Ø    PUERTO RICO DEPARTMENT OF EDUCATION
      Our review of the Puerto Rico Department of Education’s (PRDE) administration of
      contracts under the Title I programs found PRDE’s cash management practices inadequate
      and its internal controls ineffective to administer the programs. We recommended that the
      Department require PRDE to establish adequate controls over its procurement procedures.

      We continue to be concerned about PRDE’s administration of Department programs. We
      have been meeting with Department and PRDE officials to discuss deficiencies identified
      in OIG audits and single audits performed under the Single Audit Act of 1984, which
      established uniform entity-wide audit requirements for state and local governments
      receiving federal financial assistance. This period we met with Departmental, PRDE, and
      Puerto Rico Governor’s Office officials to discuss issues regarding this audit and one we
      did last period on PRDE Title I contracts. Puerto Rico officials were in general agreement
      with our findings. (“Puerto Rico Department of Education Did Not Administer Properly
      Title I Contracts with National School Services of Puerto Rico for the 1999/2000 and
      2000/2001 School Years,” ED-OIG/A02-B0012, September 2001.)

Ø    INVESTIGATIONS RELATING TO ADULT EDUCATION
      OIG investigative efforts resulted in indictments of two community-based organizations
      that received adult education funds and allegedly submitted false claims to the Department.
      Both received Department funds through the California Department of Education to
      provide adult education courses, including courses in adult basic education, English as a
      Second Language (ESL), and ESL-citizenship. The total amount of Department funds at
      risk in these cases is an estimated $3,938,000.

Nonfederal Audit Activities
Participants in Department programs are required to submit annual financial statements and to
comply with audits performed by independent public accountants (IPAs). In accordance with the
Inspector General Act’s direction to assure that work performed by nonfederal auditors complies
with federal government auditing standards, we publish audit guidance specific to Department
programs to assist IPAs in performing these audits.

We performed 48 quality control reviews of audits by 42 different IPAs. Of these, 30 were
acceptable, 14 were technically deficient, and 4 were substandard. We also referred four IPAs to
the American Institute of Certified Public Accountants and/or the appropriate State Board of
Accountancy for possible disciplinary action: two for substandard work reported in a prior
semiannual report, and two because they could not provide working papers for our review.




                                                   7
                                              P.L. 95-452
                                         Reporting Requirements
                                                                                       Appendix    Page
    Section                                      Requirement                           Number     Number

Sections 5(a)(1) Significant Problems, Abuses, and Deficiencies
and 5(a)(2)
                 Significant Activities and Accomplishments                               *         1

Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on             1         9
                  Which Corrective Action Has Not Been Completed

Section 5(a)(4)   Matters Referred to Prosecutive Authorities

                  Investigation Services Cumulative Actions                               7         18

                  Statistical Profile                                                     9         23

Sections 5(a)(5) Summary of Instances Where Information Was Refused or Not
and 6(b)(2)      Provided**

Section 5(a)(6)   Listing of Audit Reports
                  ED/OIG Audit Services Reports on Education Department Programs and      3         11
                  Activities

Section 5(a)(7)   Summary of Significant Audits
                  Significant Activities and Accomplishments                              *         1

Section 5(a)(8)   Audit Reports Containing Questioned Costs
                  Inspector General Issued Audit Reports with Questioned Costs            4         15

Section 5(a)(9)   Audit Reports Containing Recommendations That Funds Be Put to
                  Better Use
                  Inspector General Issued Audit Reports with Recommendations for         5         15
                  Better Use of Funds

Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the
                 Beginning of the Reporting Period

                  Unresolved Reports Issued Prior to April 1, 2001                        6         16

Section 5(a)(11) Significant Revised Management Decisions**

Section 5(a)(12) Significant Management Decisions with Which OIG Disagreed**


   * - Information found in pages 1-7 of the Semiannual Report.
   ** - No instances to report.                                 8
                                                                                                                                    Appendix 1


           Recommendations Described in Previous Semiannual Reports on Which
                      Corrective Action Has Not Been Completed
Section 5(a)(3) of the Inspector General Act requires a listing of each report resolved before the commencement of the reporting period for which
management has not completed corrective action. The reports listed below are OIG internal and nationwide audit reports and management improvement
reports.
                                                                                                          Total         Number of
  Report                                Auditee/Title                                 Date      Date    Monetary Recommendations Latest Target
  Number           (Prior Semiannual Report (SAR) Number and Page)                   Issued Resolved Findings         Open      Closed Closure Date
New Since Last Reporting Period
Student Financial Assistance
03-90003 Audit of Case Management and Oversight's Audit Tracking and           09/29/00 01/31/01        *           1         6        12/31/01
            Resolution Process (SAR 41, pg. 23)

01-90005     The Recertification Process for Foreign Schools Needs to Be       09/29/00 03/31/01        *           1         3        09/30/02
             Improved (SAR 41, pg. 23)

05-90024     Consolidating Defaulted Loans in the Federal Consolidation Loan 09/28/00 01/31/01          *           4         0        12/31/01
             Program within the Federal Family Education Loan (FFEL)
             Program (SAR 41, pg. 23)

17-90018     U.S. Department of Education - Student Financial Assistance -     02/28/00 09/30/00        *           2        21        06/28/02
             Audited Financial Statements - For the Fiscal Year Ended
             September 30, 1999 (SAR 40, pg. 19)

Office of Postsecondary Education
04-90014 Review of the Title III Program, HEA, Compliance with GPRA            06/30/00 03/31/01        *           7         0        12/31/02
             Requirements for Implementation of Performance Indicators
             (SAR 41, pg. 23)

Office of the Chief Information Officer
                                                                                                                                       06/30/01
11-90013     Review of Security Posture, Policies and Plans (SAR 40, pg. 3)    02/25/00 06/30/00        *           5         8

11-90018     Review of EDNET Security (SAR 41, pg. 22)                         07/10/00 03/31/01        *          12        48        08/01/01

11-A0005     Review of Planning and Assessment Activities for Presidential     09/14/00 03/31/01        *           7         3        11/30/01
             Decision Directive 63 on Critical Infrastructure Protection
             (SAR 41, pg. 22)

Office of the Deputy Secretary
11-A0014 Audit of the U.S. Department of Education's Controls Over             09/15/00 01/31/01        *           0         7           **
             Cellular Phones (SAR 41, pg. 22)

Office of the Chief Financial Officer
17-80006 Fiscal Year 1998 Annual Financial Statements (SAR 40, pg. 19)         11/18/99 08/31/00        *           2        26        10/31/01
17-90019     Fiscal Year 1999 Annual Financial Statements U.S. Department      02/28/00 07/31/00        *           2        22        01/31/02
             of Education (SAR 40, pg. 19)

Reported in Previous Semiannual Report
Office of Postsecondary Education
04-60001 Process Enhancements in the HEA, Title III, Institutional Aid         03/27/96 08/31/96        *           1         3        08/01/01
             Program Would Increase Program Efficiency, Despite Limited
             Resources (SAR 32, pg. 9)

MIR 92-05 ED Needs To Strengthen Student Loan Cure Procedures                  03/13/92 09/30/93 $154,000,000       1         0        09/30/02
09-18053 (SAR 24, pg. 12)




   MIR - Management Improvement Report
   * - Non-monetary findings only.
   ** - Received closure memo dated 10/16/01.
                                                                           9
                                                                                                                           Appendix 1

           Recommendations Described in Previous Semiannual Reports on Which
                   Corrective Action Has Not Been Completed (Cont.)
                                                                                                  Total      Number of
  Report                             Auditee/Title                            Date   Date        Monetary Recommendations Latest Target
  Number        (Prior Semiannual Report (SAR) Number and Page)              Issued Resolved     Findings  Open   Closed Closure Date
Student Financial Assistance
A03-70010 Audit of the U.S. Department of Education's Closed School          06/30/99 01/31/00 $24,058,432    1       6       10/31/01
            Process (SAR 39, pg. 17)

Office of the Chief Financial Officer
17-40303 The Report of Independent Accountants on the U.S. Department        08/16/96 03/31/97      *         2       24      10/31/01
             of Education Fiscal Year 1995 Department-wide Financial
             Statements (SAR 33, pg. 14)

17-60002    The Report of Independent Accountants on the U.S. Department     07/31/97 05/31/99      *         2       33      10/31/01
            of Education Fiscal Year 1996 Department-wide Financial
            Statements (SAR 35, pg. 19)

17-70002    U.S. Department of Education's Fiscal Year 1997 Financial        06/15/98 05/31/99      *         2       35      10/31/01
            Statements and Accompanying Notes (SAR 37, pg. 13)

Office of the Chief Information Officer
11-70007 The Status of Education's Implementation of the Clinger-Cohen       03/31/98 08/31/99      *         1       10      02/28/02
             Act (SAR 36, pg. 19)

Office of the Under Secretary
17-70007 Moving Towards a Result-Oriented Organization: A Report on          09/24/98 01/31/00      *         1       7       03/31/02
             the Status of ED's Implementation of the Results Act
             (SAR 37, pg. 14)

   Appendix 2


       Other ED/OIG Reports on Education Department Programs and Activities
  Report                                                                                                                       Date
  Number                             Report Title                                                                             Issued

Analysis and Inspection Reports

2001-02     Review of Student Financial Assistance’s Performance Plan                                                         09/21/01

2001-04     Follow-up Review of Internal Control Over Purchase Cards                                                          09/28/01




   * - Non-monetary findings only.
   ** - Received closure memo dated 10/16/01.
                                                                        10
                                                                                                                                                                  Appendix 3


                         ED/OIG Audit Services Reports on Education Department
                        Programs and Activities (April 1, 2001 to September 30, 2001)
Section 5(a)(6) of the Inspector General Act requires a listing of each report completed by OIG during the reporting period. A total of 33 audit reports were issued by ED/OIG
auditors. In addition, we issued 20 alternative products, which include action memoranda1, information memoranda, close-out letters, special projects, and a joint project with
Student Financial Assistance. The 53 reports are listed below by program office.
  Report                                                                                               Date       Questioned Unsupported Better Use  Number of
  Number                                          Report Title                                        Issued       Costs**      Costs     of Funds Recommendations
AUDIT REPORTS
Office of the Chief Financial Officer
A17-B0003 U.S. Department of Education Management Letter Fiscal Year 2000                            04/06/01           *                *               *               39

Office of the Chief Information Officer
A11-A0011 Audit of the Department's Records Management Program                                      09/27/01            *                *               *                7
A11-B0007 Department of Education's Implementation of GISRA (Government                             09/07/01            *                *               *               15
          Information Security Reform Act)

Office of Elementary and Secondary Education
A02-B0012 Puerto Rico Department of Education Did Not Administer Properly 09/28/01 $1,324,825                                      $7,087,455            *               10
             Title I Contracts With National School Services of Puerto Rico for the
             1999/2000 and 2000/2001 School Years

A03-A0021 Review of the Office of Elementary and Secondary Education                                09/24/01            *                *               *                4
          Discretionary Grants Monitoring Process

Office of Postsecondary Education
A03-A0019 Audit of Lincoln University's Administration of the Title III Grant                       07/27/01        $62,479         $124,818             *                7

Office of Special Education and Rehabilitative Services
A04-A0015 The Virgin Islands Government Lacks Adequate Management               07/25/01                           $131,542        $4,571,000            *               15
             Controls Over the Administration of Its IDEA, Part B Grant Program
             Salary Costs

A04-B0013 Audit of the Virgin Islands Department of Education, Special                              07/17/01            *                *               *                4
          Education Payroll

A05-A0031 Michigan Department of Education Management Controls over                                 09/21/01            *                *               *               12
          IDEA, Part B - Special Education Performance Data

A05-B0001 Audit of IDEA Part B Carryovers at the Indiana Department of                              09/18/01            *                *               *                1
          Education, Indianapolis, Indiana

A05-B0021 Audit of IDEA Part B at the Mississippi Department of Education,                          09/06/01            *                *               *                0
          Jackson, Mississippi

A05-B0022 Audit of IDEA Part B at the California Department of Education,                           09/24/01            *                *               *                0
          Sacramento, California

A07-A0020 Kansas State Department of Education Management Controls Over                             07/20/01            *                *               *               10
          IDEA, Part B - Special Education Performance Data

Office of Vocational and Adult Education
A04-B0010 The Division of Vocational-Technical Education's Monitoring of                            09/25/01            *                *               *                2
            Formula Grants

Student Financial Assistance
A05-A0030 Audit of Commission Sales at Olivet Nazarene University                                   05/21/01 $3,299,891                  *               *                4

A05-B0004 Indiana Wesleyan University, Adult and Professional Studies                               09/28/01 $31,682,782                 *               *                5
          Administration of Title IV Programs, Marion, Indiana


    1
     Action Memoranda notify the Department's management of issues and problems detected so that appropriate action is taken. Action Memoranda are pre-decisional and will
    not appear on our web site.


    * - Non-monetary finding only. ** - Includes other recommended recoveries.
    A - Audit S - Special Report E - Action Memorandum
                                                                                         11
                                                                                                                                   Appendix 3

                   ED/OIG Audit Services Reports on Education Department
              Programs and Activities (April 1, 2001 to September 30, 2001) (Cont.)
  Report                                                                                Date     Questioned Unsupported Better Use  Number of
  Number                                       Report Title                            Issued     Costs**      Costs     of Funds Recommendations
Student Financial Assistance (Cont.)
A05-B0007 Audit of the Michigan Guaranty Agency's Administration of the               09/25/01 $1,100,400        *          *            4
            Federal Family Education Loan Program Federal and Operating
            Funds
A05-B0014 Audit of Course Length at Olivet Nazarene University                        09/28/01       *           *          *            4
A05-B0025 Rush University's Administration of Title IV, SFA Programs                  09/07/01       *           *          *            0
A06-A0001 Interactive Learning Systems' Administration of the Title IV Student        07/20/01   $990,828        *          *            7
          Financial Assistance Programs

A06-A0015 ESS College of Business' Administration of the Title IV Student             08/29/01 $4,439,651        *          *            4
          Financial Assistance Programs

A06-B0009 Audit of Southwest Texas University's Compliance with the Title IV, 09/28/01            $11,200        *          *            3
          Student Financial Assistance, Verification Requirements

A06-B0010 Audit of McLennan Community College's Compliance with the Title 07/23/01                 $486          *          *            0
          IV, Student Financial Assistance, Verification Requirements

A06-B0013                                                                             09/28/01    $1,172         *          *            1
              Audit of the University of Arkansas at Little Rock's Compliance with
              the Title IV, Student Financial Assistance, Verification Requirements

A06-B0014 Audit of United Education Institute's Compliance with the Title IV,         09/06/01    $7,285         *          *            1
          Student Financial Assistance, Verification Requirements

A07-90035 Audit of Commissioned Sales at William Penn University                      05/15/01 $5,023,447        *          *            4
A07-B0001 Audit of Course Length at William Penn University                           09/28/01       *           *          *            4
A09-A0018 Student Financial Assistance Enforcement of the Institutional               09/28/01       *           *          *           17
          Financial Responsibility Regulations

A09-A0021 Indiana State University's Policies and Procedures Covering                 05/18/01    $9,686         *          *            4
          Educational Programs and Courses Delivered Through Distance
          Education Methods
A17-B0004 Student Financial Assistance Fiscal Year 2000 Management Letter             04/06/01       *           *          *           31

A19-B0004 Audit of Controls over Government Property Furnished to Affiliated 04/20/01                *           *          *            6
          Computer Services, Inc.

A19-B0005 Audit of Controls over Government Property Managed by Raytheon              09/19/01       *           *          *            6
          Systems Company

Not Related to Any Program Office
A03-B0003 Audit of the Implementation of the District of Columbia College             08/31/01       *           *          *            4
            Access Act of 1999

ALTERNATE AUDIT SERVICES PRODUCTS
Office of the Chief Financial Officer
E07-B0018 Inadequate Controls Allow the Obligation of Funds Greater than              05/31/01       *           *          *            3
             Delegated Authority (SFA Action Memo No. 01-05)

E17-B0010 Missing Records in the Grants Administration and Payment System             09/25/01       *           *          *            1
          (GAPS) (FIN Action Memo No. 01-01)




   * - Non-monetary finding only. ** - Includes other recommended recoveries.
   A - Audit S - Special Report E - Action Memorandum
                                                                                12
                                                                                                                                              Appendix 3

                      ED/OIG Audit Services Reports on Education Department
                 Programs and Activities (April 1, 2001 to September 30, 2001) (Cont.)
  Report                                                                                           Date     Questioned Unsupported Better Use  Number of
  Number                                            Report Title                                  Issued     Costs**      Costs     of Funds Recommendations
Office of the Chief Financial Officer (Cont.)
S17-B0016 Transmission of Business Maps Documenting the Workflow and Key 09/27/01                               *           *          *            0
             Internal Controls Resulting from the Review of Various Disbursement
             Processes within the U.S. Department of Education Office of the
             Chief Financial Officer

Office of Educational Research and Improvement
S17-B0014 Review of the Discretionary Grant Disbursement Process within the                      07/19/01       *           *          *            2
            U.S. Department of Education Office of Educational Research and
            Improvement

Office of Elementary and Secondary Education
S17-B0013 Review of the Impact Aid Program Disbursement Process within the                       07/19/01       *           *          *            4
             U.S. Department of Education Office of Elementary and Secondary
             Education

Office of Special Education and Rehabilitative Services
A04-B0012 The Office of Special Education Programs Monitoring of Formula                         07/02/01       *           *          *            0
             Grants2
S05-B0031 Wisconsin Department of Workforce Development's Administration                         08/06/01       *           *          *            0
          of its Vocational Rehabilitation Grants to States Program2

S09-B0013 State-Reported Data Used to Evaluate Performance of the Individuals 09/28/01                          *           *          *            0
          with Disabilities Education Act (IDEA), Part B - Special Education
          Programs (State and Local Information Memo No. 01-02)

Office of the Under Secretary
S09-B0004 State-Reported Data Used in Measuring Performance of Education                         08/03/01       *           *          *            0
             Programs (State and Local Information Memo No. 01-01)

Office of Vocational and Adult Education
S17-B0015 Review of the Formula Grant Disbursement Process within the U.S.                       07/19/01       *           *          *            2
            Department of Education Office of Vocational and Adult Education

Student Financial Assistance
A06-B0001 Identification of Schools Not Making Title IV Refunds2                                 08/06/01       *           *          *            0

A06-B0008 Survey of the William D. Ford Federal Direct Loan Program at the                       08/06/01       *           *          *            0
          University of Alabama at Birmingham2

E06-B0030 South Texas Vocational Technical Institute's Compliance with the                       09/14/01       *           *          *            3
          Financial Responsibility Requirements (SFA Action Memo No. 01-
          07)
E07-B0023 Share In Saving Task Order Baseline Overstated (SFA Action Memo 08/01/01                              *           *          *            3
          No. 01-06)
A09-B0006 Policies and Procedures for Distance Education - Golden Gate                           06/29/01       *           *          *            0
          University, San Francisco, CA2

A09-B0007 Survey of Computer Education Institute and California Education     06/13/01                          *           *          *            0
          Institute College Administration of Title IV Programs in Compliance
          with the Higher Education Act of 1965 as amended 2




   2
       Audit closure notice - notice to close assignment without issuing an audit report.



   * - Non-monetary finding only. ** - Includes other recommended recoveries.
   A - Audit S - Special Report E - Action Memorandum
                                                                                            13
                                                                                                                                                Appendix 3




                      ED/OIG Audit Services Reports on Education Department
                 Programs and Activities (April 1, 2001 to September 30, 2001) (Cont.)
  Report                                                                                             Date     Questioned Unsupported Better Use  Number of
  Number                                             Report Title                                   Issued     Costs**      Costs     of Funds Recommendations
Student Financial Assistance (Cont.)
E09-B0012 Proposed Performance Incentives for Operation of the Document          05/02/01                         *           *          *            2
            Receipt and Control Center Need Further Development Before
            Inclusion in the Department's Contract with Friday Systems Services,
            Inc. (SFA Action Memo No. 01-04)
S11-A0017 PEPS Data Reliability Assessment3                                                        08/22/01       *           *          *            0
S17-B0017 Transmission of Business Maps Documenting the Workflow and Key 09/28/01                                 *           *          *            0
          Internal Controls Resulting from the Review of Various Disbursement
          Processes within the U.S. Department of Education Student Financial
          Assistance
A19-B0007 Audit of Treasury Offsets Returned to Borrowers2                                         06/21/01       *           *          *            0




   2
       - Audit closure notice - notice to close assignment without issuing an audit report.
   3
       - Joint project with Student Financial Assistance.
   * - Non-monetary finding only. ** - Includes other recommended recoveries.
   A - Audit S - Special Report E - Action Memorandum
                                                                                              14
                                                                                                                           Appendix 4


                                       Inspector General Issued Audit Reports
                                               with Questioned Costs 1
                                                                                      Number                Questioned    Supported 2
A.             For which no management decision has been made before the
               commencement of the reporting period (as adjusted)*                       39                $123,434,546   $14,878,613

B.             Which were issued during the reporting period                             14                 $59,868,947   $11,783,273

                   Subtotals (A + B)                                                     53                $183,303,493   $26,661,886

C.             For which a management decision was made during the reporting
               period                                                                    11                 $21,764,428    $2,844,330

               (i) Dollar value of disallowed costs                                                          $6,785,956            $0

               (ii) Dollar value of costs not disallowed                                                    $14,978,472    $2,844,330

D.             For which no management decision has been made by the end of
               the reporting period                                                      42                $161,539,065   $23,817,556

E.             For which no management decision was made within six months
               of issuance                                                               31                 $78,729,128    $9,234,283

1
    - None of the audits reported in this table were performed by the Defense Contract Audit Agency.
2
    - Included in questioned costs.
*
 Beginning balance for Unsupported Cost was decreased by $2,265,212 (adjustment made to our database for audit, ACN A06-60010).
Also, we decreased Questioned Cost by $2,499 (A05-A0028 was reduced by $2,677, A02-A0001 was increased by $148, and A05-A0004
was increased by $30).


                                                                                                                           Appendix 5


                                   Inspector General Issued Audit Reports with
                                     Recommendations for Better Use of Funds1
                                                                                                           Number         Dollar Value
A.             For which no management decision has been made before the
               commencement of the reporting period (as adjusted)                                            1            $10,300,000

B.             Which were issued during the reporting period                                                 0                     $0
                 Subtotals (A + B)                                                                           1            $10,300,000

C.             For which a management decision was made during the reporting
               period                                                                                        0                     $0

               (i) Dollar value of recommendations that were agreed to by
               management                                                                                    0                     $0

               (ii) Dollar value of recommendations that were not agreed to by
               management                                                                                    0                     $0

D.             For which no management decision has been made by the end of
               the reporting period                                                                          1            $10,300,000

E.             For which no management decision was made within six months
               of issuance                                                                                   1            $10,300,000


    1
        - None of the audits reported in this table were performed by the Defense Contract Audit Agency.
                                                                           15
                                                                                                                                                                 Appendix 6


                                    Unresolved Reports Issued Prior to April 1, 2001
Section 5(a)(10) of the Inspector General Act requires a listing of each report issued before the commencement of the reporting period for which no
management decisions had been made by the end of the reporting period.
   Report                                               Report Title                                                     Date      Total Monetary    Number of
   Number                            (Prior Semiannual Report (SAR) Number and Page)                                    Issued        Findings    Recommendations
New Since Last Reporting Period
Office of Bilingual Education and Minority Language Affairs
A05-A0004 Title VII Systemwide Improvement Grant Administered by Community Unit School                                 12/06/00       $684,329                    2
             District 300, Carpentersville, Illinois (SAR 42, pg. 21)
       Status: Program office is awaiting additional information from auditee.

Office of Elementary and Secondary Education
A01-A0004 Puerto Rico Department of Education Did Not Administer Properly a $9,700,000                                 03/28/01      $7,841,493                 14
             Contract with National School Services of Puerto Rico (SAR 42, pg. 21)
       Status: Resolution will be through the Department's Cooperative Audit Resolution and Oversight Initiative.

A03-A0018 State and Local Education Agencies' Compliance with the Gun-Free Schools Act of                              02/01/01             *                     6
          1994 (SAR 42, pg. 21)
       Status: Copy of response to resolve received 10/31/01. Program office advised of actions planned in response to report. OIG will remove next period if concurrence is
               reached.

A04-A0005 Audit of the Governor's Program Portion of the Safe and Drug-Free Schools and                                03/30/01             *                     6
          Communities Act (SAR 42, pg. 21)
       Status: Copy of response to resolve received 10/31/01. Program office advised of actions planned in response to report. OIG will remove next period if concurrence is
               reached.

Office of Postsecondary Education
A04-90013 Office of Higher Education Programs Needs to Improve Its Oversight of Parts A and B 12/27/00                                      *                    17
            of the Title III Program (SAR 42, pg. 21)
       Status: Progress is being made in implementing the recommendations. Program staff and management discussed the outstanding action items and assigned
               responsibility.

A05-A0026 Audit of Richard J. Daley College's Administration of Selected Aspects of Its                                03/30/01       $1,621,861                  2
          Strengthening Institutions - Hispanic Serving Institution Program, Chicago, Illinois
          (SAR 42, pg. 21)
       Status: Program attorney is reviewing response recently received by Daley College.

Office of Special Education and Rehabilitative Education
A09-A0016 California Department of Education Management Controls over IDEA, Part B - Special 03/30/01                                       *                     8
            Education Performance Data (SAR 42, pg. 21)
       Status: Currently working on this case.

Student Financial Assistance
A05-A0002 Great Lakes Higher Education Guaranty Corporation's Administration of the Federal                            03/30/01        $840,169                   4
           Family Education Loan Programs, Madison, Wisconsin (SAR 42, pg. 22)
       Status: Progress is being made in resolving the report.

A05-A0025 Audit of Great Lakes Higher Education Guaranty Corporation's Administration of the 03/30/01                                       *                     7
          Federal Family Education Loan (FFEL) Program Federal and Operating Funds (SAR 42,
          pg. 22)
       Status: Progress is being made in resolving the recommendations.

A05-A0028 Audit of the Illinois Student Assistance Commission's Administration of the Federal                          03/30/01      $4,469,131                  14
          Family Education Loan Program Federal and Operating Funds (SAR 42, pg. 22)
       Status: Copy of PDL dated 10/31/01 was received on 11/06/01 and this audit will be removed next period.

A06-90010 International Aviation and Travel Academy's Administration of Title IV Student                               03/29/01       $6,637,634                  7
          Financial Assistance Programs (SAR 42, pg. 22)
       Status: Audit placed on Department's administrative stay 9/24/01.

A06-A0003 International Business College's Administration of Title IV Student Financial Assistance 03/28/01                            $461,035                   4
          Programs (SAR 42, pg. 22)
       Status: Audit placed on Department's administrative stay 9/24/01.

Reported in Previous Semiannual Report
Office of Elementary and Secondary Education
A01-90006 Puerto Rico Department of Education Needs Major Improvements in its Administration 09/27/00                                  $181,305                  18
             of the Even Start Program (SAR 41, pg. 22)
       Status: Resolution will be through the Department's Cooperative Audit Resolution and Oversight Initiative.



* - Non-monetary findings only.
Note - Status comments reflect documents received, comments agreed to, or comments provided by the Department.
                                                                                     16
                                                                                                                                                                    Appendix 6

                            Unresolved Reports Issued Prior to April 1, 2001 (Cont.)
 Report                                       Report Title                                                                  Date Total Monetary    Number of
 Number                    (Prior Semiannual Report (SAR) Number and Page)                                                 Issued   Findings    Recommendations
Office of Elementary and Secondary Education (Cont.)
A02-50200 The Puerto Rico Department of Education Must Institute a Time Distribution System                              11/14/97              *                     1
             (SAR 36, pg.13)
       Status: Resolution will be through the Department's Cooperative Audit Resolution and Oversight Initiative.

A01-90007 Puerto Rico Department of Education Needs Major Improvements in its Administration 09/27/00                                     $82,452                   17
          of the Governor's Safe and Drug-Free School Program (SAR 41, pg. 22)
       Status: Resolution will be through the Department's Cooperative Audit Resolution and Oversight Initiative.

Office of Special Education and Rehabilitative Services
A09-A0001 Arizona Department of Education Management Controls over IDEA, Part B - Special                                09/22/00              *                     7
            Education Performance Data (SAR 41, pg. 23)
       Status: Currently working on this case.

Student Financial Assistance
A02-70010 Drake Business Schools Corporation - Refunds of Unearned Tuition, Fees and Other                               06/06/00         $72,493                   11
           Institutional Charges (SAR 41, pg. 23)
       Status: Audit was placed on Department's administrative stay 03/29/01.

A03-90005 Computer Dynamics Institute Incorporated's Eligibility to Participate in the Title IV                          09/15/00        $6,410,913                  6
          Programs (SAR 41, pg. 23)
       Status: Audit was placed on Department's administrative stay 03/29/01.

A05-90052 Mount Senario College's Administration of the Title IV, HEA Program for the Period                             09/14/00         $40,942                   12
          July 1, 1998 through June 30, 1999 (SAR 41, pg. 23)
       Status: Copy of PLD dated 9/22/01 was received 10/31/01. This audit will be removed next period.

A05-90054 Audit of the Title IV, Higher Education Act Programs Administered by Cleveland State 09/28/00                                   $86,189                    9
          University, Cleveland, Ohio (SAR 41, pg. 23)
       Status: Audit was placed on the Department's administrative stay 03/29/01.

A06-70005 Professional Judgment at Yale University (SAR 36, pg.18)                                                       03/13/98          $5,469                    3
       Status: Audit was placed on Department's administrative stay 06/29/00.

A06-70009 Professional Judgment at University of Colorado (SAR 37, pg. 17)                                               07/17/98         $15,082                    4
       Status: Audit was placed on Department's administrative stay 06/29/00.

A06-80013 Hallmark Institute of Aeronautics' Compliance with the 85 Percent Rule                                         03/06/00        $5,204,586                  3
          (SAR 40, pg. 18)
       Status: Audit was placed on Department's administrative stay 09/29/00.

A06-90004 Review of Student Financial Aid Compliance at Success Institute of Business (SAR 41, 08/07/00                                  $2,245,416                  3
          pg. 23)
       Status: Audit was placed on Department's administrative stay 09/26/01.

A06-90011 Review of Collection Activities at Unger and Associates (SAR 40, pg. 18)                                       02/08/00         $833,897                   4
       Status: Audit was placed on Department's administrative stay on 9/29/00.

A07-23545 State of Missouri, Single Audit Two Years Ended June 30, 1991                                                  04/01/93        $1,048,768                 18
       Status: This is a single audit report prepared by the State Auditor of Missouri that covered two years ending June 30, 1991. SFA is in the process of resolving the
               Missouri audit.

A07-33123 State of Missouri, Single Audit Year Ended June 30, 1992                                                       03/07/94         $187,530                  18
       Status: This is a single audit report prepared by the State Auditor of Missouri that covered the year ending June 30, 1992. SFA is in the process of resolving the
               Missouri audit.

A09-10005 California Student Aid Commission: The Commission's Loans in Repayment Were                                    09/10/93       $41,100,000                  5
          Overstated by $1.5 Billion (SAR 27, pg. 17)
       Status: SFA is working on resolving this audit.

A09-70015 Associated Technical College (ATC) Eligibility of Institutions to Participate in Title IV 09/09/98                            $8,600,000                   7
          Programs & Other Issues (SAR 37, pg. 16)
       Status: Placed on Department's administrative stay on 06/29/00 .

A09-90011 Platt College-San Francisco Administration of Title IV Programs (SAR 40, pg. 18)                               02/28/00         $191,721                  10
       Status: Placed on Department's administrative stay on 09/29/00 .

N06-90010 Inspection of Parks College's Compliance with Student Financial Assistance                                     02/09/00         $169,390                   1
          Requirements (SAR 40, pg. 18)
       Status: SFA and OIG are working on an approach to resolve this report.




* - Non-monetary findings only.
Note - Status comments reflect documents received, comments agreed to, or comments provided by the Department.
                                                                                       17
                                                                                                      Appendix 7


                               Investigation Services Cumulative Actions
                  Defendant/                Indicted/                                     Civil    Adjudicated
                    Subject               Information      Convicted         Sentenced   Matters      Value
   SCHOOL CASES
   Alvarez, Georgina                          n                  n              X                     $46,000
   Armijo, Luis                               n                  X
   Bennett, Patti                             X                  X              X                        $100
   Billeandeau, Constantina                   X                  X              X                        $100
   Carrandy, Miriam                           n                  n              X                     $79,000
   Case, Angela                               X                  X              X
   Castelvetere, Bruno                        n         Trial - Not Guilty
   Dupre, Moses                               X                  X
   Fields-Ellingboe, Eva                      X                  X
   Frost, Ann                                 n                  n              X                      $4,500
   Fuentes, Doreen                            X                  X              X                    $151,194
   Fuentes, Judith                            X                  X              X
   Fuentes, Maria                             X                  X              X
   Gannon, Linda                              X                  X              X
   Hall, Linda Higgs                          X                  X
   Hampton, Susan                             n                  X
   Harmon, Kathryn                            X                  X              X                  $1,411,729
   Hightower, Cecelia                         X                  X
   Holt, Deidera                              X
   House, James                               n                 X
   Kraus, James                               X
   Lai, Santos                                X                 X               X
   Mathis, Sharon                             n                 n               X                    $120,000
   Nespereira, Elena                          n                 n               X                     $35,000
   Olowu, King                                n                 n               X                     $79,143
   Pearson, Robert                            X                 X               X                     $27,000
   Sam, Osmara                                n                 X
   Santa, Donna                               n                 n               X                    $200,000
   Snumpert-Harris, Rochelle                  n                 X
   Singh, Rajiv                               X
   Sosa-Funes, Jose                           n                 n               X
   Strain, Daniel                             n                 X                                  $1,000,000
   Taylor, Daniel                             n                 X               X                     $16,700
   Thorp, Richard                             X
   Torres, Alina                              n                 X
   Torres, Gabriel                            n                 X
   Valle, Hiram                               X                 X
   Whetstone, Edward                          n                 X
   Total Value School Cases:                                                                       $3,170,466

   CIVIL CASES
   Wright Business School                                                                  X         $225,000
   Vogue Colleges of Cosmetology                                                           X         $168,000
   Total Value Civil Cases:                                                                          $393,000

   DEATH AND DISABILITY CASES
   Bonner, Maria                              X
   Bonner, Vernon                             X
   Richardson, Michael                        n                 X               X                     $52,319
   Total Value Death and Disability Cases:                                                            $52,319

n - Action reported in previous period.
X - Action reported in current period.                       18
                                                                                             Appendix 7


                       Investigation Services Cumulative Actions (Cont.)
                  Defendant/                Indicted/                            Civil    Adjudicated
                    Subject               Information   Convicted   Sentenced   Matters      Value
   PREPARER AND CLIENT CASES
   Alexander, Jerome                          n            X                      X
   Baker, Teddie                                                                  X          $12,320
   Bell-Johnson, Geraldine                    n            X
   Benford, Stephen                                                               X           $8,940
   Brooks, Charlotte                                                              X           $9,336
   Bukowsky, Richard                          X
   Casey, Donald                              X
   Celestin, Horace                           n            X           X                     $67,471
   Clark, Elizabeth                           X
   Coleman, Felecia                                                               X           $8,630
   Coe, Kevin                                                                     X           $4,840
   Cox, Angela                                                                    X          $13,400
   Davis, Dawyen                                                                  X          $15,820
   Dilligard, Tina                                                                X           $7,110
   Garner, Patricia                           X            X           X                     $17,370
   Gillespie, Walter                                                              X           $3,444
   Green, Kenyatta                                                                X           $4,702
   Green, Robert                              X
   Harris, Gloria                             X
   Holloway, Fred                             X            X
   Jackson, Lesley                                                                X           $4,840
   Johnson, Kimberly                                                              X          $12,820
   Jones, Darnell                             X
   Jones, Katrelle                                                                X           $8,100
   Jones, Sharon                              X
   Lake, Latrisha                                                                 X          $14,016
   Martin,Emma                                X
   Martin, Kelly                                                                  X          $11,570
   Martin, Peter                              X
   Massey, Maline                                                                 X           $5,900
   McDonald, Richard                                                              X           $4,490
   Miller, Donte                                                                  X          $21,103
   Mitchell, Annie                            X            X           X                     $11,500
   Norman, Lloyd                              X
   Olsen, Barbara                             n            X           X                     $65,836
   O’Connor, Daisy                            X            X
   Patterson, Shrela                                                              X           $7,400
   Ray, Henry                                 n            X
   Richmond, Laudi                                                                X          $12,340
   Riley, Gary                                                                    X           $5,930
   Roberts, Tracie                                                                X          $14,820
   Rooks, Wayne                                                                   X          $13,120
   Sanders, Vernea                                                                X           $3,740
   Snipes, Marlon                             n            X           X                     $11,365
   Smith, Frances                             n            X
   Smith, Myles                               X
   Sproles, Erica                                                                 X           $3,960
   St. Clair, Nathaniel                       n            X                      X
   St. Clair, Lillie                          n            X                      X
   Stewart, Queen                             X            X
   Tartt, Randall                                                                 X             $746

n - Action reported in previous period.
X - Action reported in current period.                   19
                                                                                             Appendix 7


                       Investigation Services Cumulative Actions (Cont.)
                  Defendant/                Indicted/                            Civil    Adjudicated
                    Subject               Information   Convicted   Sentenced   Matters      Value
   PREPARER AND CLIENT CASES (CONT.)
   Thomas, Kaleelah                                                               X          $31,520
   Thomas, Burma                          X
   Walker, Lavar                                                                  X          $28,958
   Ward, Jennifer                                                                 X           $3,580
   Ward, Patricia                         X
   Washington, Marcus                     X
   Watson, Yolanda                                                                X          $12,198
   Williams, Ackisha                                                              X           $5,232
   Williams, Craig                                                                X           $7,490
   Willis, Nicole                                                                 X          $11,340
   Young, Arthur                          X
   Ziyad, Saalik                                                                  X           $4,900
   Total Value Preparer and Client Cases:                                                   $512,197

   STUDENT FINANCIAL ASSISTANCE RECIPIENT CASES
   Baptiste, Ruth Jean            X
   Buissereth, Albert             X
   Coles, Brian                   X
   Doan, Susan                   n           n                         X                    $390,028
   Doan, Albert                  n           n                         X                     $14,430
   Doan, Andrew                  n           n                         X                     $15,380
   Gonzalez, Eduardo              X
   Green, Robert                  X
   Hansen, Gregory               n           X                         X                     $50,621
   Hernandez, Debra               X          X
   Heidari, Alizera               X
   Hill, Maxine                   X          X                         X                     $33,532
   Hill, Nadine                   X          X                         X                      $5,000
   Holmes, Amy                    X
   Holmes, Denise                 X
   Johnson, Lonnie                X
   Lee Darell                     X          X
   Lofton, Sharon                 X
   McCool, Arthur                 X          X
   McHenry, JoLynn                X
   Mova, Houman                   X          X
   Nava-Cruz, Susana Alicia       X
   Nobile, Gian                   X
   Parra, Alberto                 X
   Perkins, Lisa                 n           X
   Rodriguez-Becerra, Bibiano     X
   Tamayo, Analilia               X
   Tamayo, Erika                  X
   Timko, Lois                    X
   Warner-Washington, Jennifer   n           n                         X                     $24,766
   Wilson, Richard                X          X
   Total Value Recipient Cases:                                                             $533,757



n - Action reported in previous period.
X - Action reported in current period.                   20
                                                                                             Appendix 7


                       Investigation Services Cumulative Actions (Cont.)
                  Defendant/                Indicted/                            Civil    Adjudicated
                    Subject               Information   Convicted   Sentenced   Matters      Value
   OTHER CASES
   Blount, Ellois                             X            X           X
   Burch, Joanne                              X
   Burd, Gerald                               X            X           X                    $103,979
   Burroughs, Elizabeth                       X
   Burroughs, Philip                          X
   Buroughs, Tina                             X
   Carver, Bruce                              n            n           X                     $71,906
   Gray, David                                X
   Guzman, Michael                            X
   Guzman, Robert                             X
   Hawkins, Audrey                            X
   Hayes, Maurice                             X
   Hermandad Mexicana Nacional
      Legal Center                            X
   Huguet, Edmund                             n            n           X                     $70,742
   Laub, Jeffrey                              X            X           X
   Mansour, Suray                             n            n           X                     $20,833
   Melchiorre, John                           X
   Mellen, Elizabeth                          X
   Mellen, Luther                             X
   Morgan, Jeffrey                            X
   Murphy, Joanne                             X
   Porties, Cayett                            X
   White, Joseph                              n            n           X                      $8,141
   Williams, Tina                             X
   Winter, Christopher                        X
   Mansour, Suray                             n            X
   Total Value Other Cases:                                                                 $275,601

   FOREIGN STUDY FFEL PROJECT
   Akhtar, Jabir                              n            n           X                     $42,000
   Buissereth, Albert                         X
   Chirole, Raymond                           X            X           X                     $59,275
   DeOrio, David                              X            X           X                    $350,000
   Heidari, Alireza                           X
   Odom Denise                                X
   Total Value Foreign Study FFEL Cases:                                                    $451,275




n - Action reported in previous period.
X - Action reported in current period.                   21
Appendix 8


                                  Collections from Audits and Investigations


The House Report (H.R. 105-635) to accompany H.R. 4274, directs the Office of Inspector General of the Department of Education to
submit reports detailing recoveries and savings generated by its work. The following tables reflect that information.




AUDIT

              Reports                  Reports    Recommended
            Issued With Quest/Unsupp Quest/Unsupp Quest/Unsupp Management                       Write-Offs      Collected/
     FY    Quest/Unsupp Recommended    Resolved     Resolved    Decision                       Adjustments      Recovered       Balance

 1998            11          $17,011,401            8           $8,390,850       $5,350,168         $0          $1,630,691    $3,719,477

 1999            11          $69,804,793           11          $69,804,793      $38,255,609     $249,900*       $1,307,025    $36,698,684

 2000            21          $72,886,717           12          $57,544,147      $57,275,019    $208,124**       $1,804,374    $55,262,521

 2001            23          $82,435,089            2            $10,668            $5,358         $0                 $0         $5,358

Total            66          $242,138,000          33         $135,750,458      $100,886,154    $458,024        $4,742,090     $95,686,040




     * - The adjustment for $249,900 is a result of offset.
     ** - The adjustment $208,124 is the result of two offsets totaling $130,165 ($90,600 + $39,565) and one deobligation for $77,959.




INVESTIGATION

                                  Fines, Restitutions,              Amount Collected               Amount Collected             Amount
     FY        Cases1        Settlements and Judgments               Current Period                 Prior Period(s)             Collected

 1998           293                  $48,208,055                         $388,432                        $31,211,500          $31,599,932

 1999           138                  $19,154,906                         $36,052                         $7,104,114           $7,104,114

 2000           148                  $37,311,157                         $72,565                          $37,116               $37,116

 2001           201                   $9,808,716                         $80,462                           $8,077               $81,305

Total           780                 $114,482,834                         $577,511                       $38,360,807           $38,822,467




 1
     Number of cases for which collection was ordered during the fiscal year.
                                                                      22
                                                                                     Appendix 9


             Statistical Profile: April 1 - September 30, 2001

                                                                      Six-Month
                                                                  Period Ending     Fiscal Year
                                                                         9/30/01 Ending 9/30/01

OIG AUDIT REPORTS ISSUED                                                     33             55
Questioned Costs                                                    $48,085,674    $62,040,373
Unsupported Costs                                                   $11,783,273    $20,394,716
Recommendations for Better Use of Funds                                      $0             $0



OTHER OIG PRODUCTS                                                           20             32
(Inspections, Action Memoranda, Management Improvement Reports,
Information Reports, Advisory Reports, and Special Studies)



OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS                               21             50
Questioned Costs Sustained                                           $6,785,956    $13,735,846
Unsupported Costs Sustained                                                  $0     $7,768,256
Additional Disallowances Identified by Program Managers              $1,468,347     $4,794,947
Management Commitment to the Better Use of Funds                             $0             $0



INVESTIGATIVE CASE ACTIVITY
Cases Open                                                                  162            295
Cases Closed                                                                116            206
Cases Active at End of Period                                               468            468
Prosecutorial Decisions                                                      59            167
  -Accepted                                                                  43            126
  -Declined                                                                  16             41



INVESTIGATION RESULTS
Indictments/Information                                                      50            114
Convictions/Pleas                                                            57            111
Fines Ordered                                                           $32,531       $116,838
Restitution Payments Ordered                                         $8,684,827    $15,702,016
Civil Settlements/Judgments (#)                                              83            137
Civil Settlements/Judgments ($)                                      $1,091,358     $5,087,985
Savings                                                                $404,018    $10,331,729
Seized/Forfeited Property                                              $986,815       $986,815




                                                 23
